r
3/29/2021

21_ProofofService.jpeg (1464x1632)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
Bradfield Thompson substituting
as administrator for Jo Anne Thompson —PETITIONER
(Your Name)
JP MORGAN CHASE
BANK N.A.
vs.
KEVIN CULLINANE,
MARK A. SCAFINE
SG PROPERTIES..... -RESPONDENT^)
PROOF OF SERVICE
I, BRADFIELD THOMPSON , do swear or declare that on this date,
MARCH 29
.> 20 21 , as required by U.S. Supreme Court Rule 29,1 have served
the enclosed MOTION FOR LEAVE TO PROCEED INFORMA FA UPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each ofthem and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
John D. Freed Davis Wright Tremaine LLP 505 Montgomery Street, Suite 800 San Francisco, CA 94111
Eugene Ashley Hoge, Fenton, Jones & Appel, Inc. 60 S Market Street, Sulte i 400 San Jose, CA95113
Ashiee N. Cherry Hoge Fenton Jones & Appel, Inc. 60 South Market Street Suite 1400 San Jose, CA 95113-2396
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

March 29
lignature)

RECEIVED
APR - 1 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

prose.flabarappellate.org/wp-content/uploads/2018/09/2I_ProofofService.jpeg

1/1

